April 16, 2012

TO:              Marilyn Tavenner
                 Acting Administrator
                 Centers for Medicare & Medicaid Services


FROM:            /Gloria L. Jarmon/
                 Deputy Inspector General for Audit Services


SUBJECT:         Review of the Quarterly Medicaid Statement of Expenditures for the Medical
                 Assistance Program in the U.S. Virgin Islands for the Quarter Ended
                 September 30, 2009 (A-02-11-01004)


Attached, for your information, is an advance copy of our final report on the Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program in the U.S. Virgin Islands for the
quarter ended September 30, 2009. We will issue this report to the U.S. Virgin Islands
Department of Health within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620 or
through email at James.Edert@oig.hhs.gov. Please refer to report number A-02-11-01004.


Attachment
                                                              O FFICE OF A UDIT S ERVICES , R EGION II
                                                                J ACOB K. J AVITS F EDERAL B UILDING
                                                                     26 F EDERAL P LAZA , R OOM 3900
                                                                              N EW Y ORK, NY 10278



April 17, 2012

Report Number: A-02-11-01004

Mercedes K.C. Dullum, M.D.
Commissioner
U.S. Virgin Islands Department of Health
Charles Harwood Memorial Complex
3500 Estate Richmond
Christiansted, VI 00820

Dear Dr. Dullum:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the Quarterly Medicaid Statement of Expenditures
for the Medical Assistance Program in the U.S. Virgin Islands for the Quarter Ended
September 30, 2009. We will forward a copy of this report to the HHS action official noted on
the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.
Page 2 – Mercedes K.C. Dullum, M.D.


If you have any questions or comments about this report, please do not hesitate to call me, or
contact Glenn H. Richter, Audit Manager, at (518) 437-9390, extension 227, or through email at
Glenn.Richter@oig.hhs.gov. Please refer to report number A-02-11-01004 in all
correspondence.

                                           Sincerely,



                                           /James P. Edert/
                                           Regional Inspector General
                                             for Audit Services


Enclosure


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF THE QUARTERLY MEDICAID
  STATEMENT OF EXPENDITURES FOR
 THE MEDICAL ASSISTANCE PROGRAM
IN THE U.S. VIRGIN ISLANDS FOR THE
QUARTER ENDED SEPTEMBER 30, 2009




                        Daniel R. Levinson
                         Inspector General

                            April 2012
                          A-02-11-01004
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved plan (State plan).
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, enacted
February 17, 2009, provided fiscal relief to States to protect and maintain State Medicaid
programs in a period of economic downturn. For the recession adjustment period
(October 1, 2008, through December 31, 2010), the Recovery Act provided an estimated
$87 billion in additional Medicaid funding based on temporary increases in States’ Federal
medical assistance percentage.

U.S. Virgin Islands’ Medicaid Program

In the U.S. Virgin Islands, the Department of Health (DOH) administers the Medicaid program.
DOH claims Medicaid expenditures on the Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program, Form CMS-64. The Form CMS-64 is the accounting statement
that DOH, pursuant to 42 CFR § 430.30(c), must submit to CMS within 30 days after the end of
each quarter. This form shows Medicaid expenditures for the quarter being reported and any
prior-period adjustments. It also accounts for any overpayments, underpayments, and refunds
received by DOH. The amounts reported must represent actual expenditures for which all
supporting documentation, in readily reviewable form, has been compiled and that is available at
the time the claim is filed.

DOH claimed Medicaid expenditures totaling $7.9 million ($4 million Federal share) for the
quarter ended September 30, 2009. Our review covered 82 percent of DOH’s claimed
expenditures for the quarter.

OBJECTIVE

Our objective was to determine whether DOH’s claims for Federal reimbursement of Medicaid
expenditures were adequately supported by actual recorded expenditures.




                                                i
SUMMARY OF FINDING

DOH’s claims for Federal reimbursement of Medicaid expenditures for the quarter ended
September 30, 2009, were not adequately supported by actual recorded expenditures. Of the
$6,478,448 ($3,239,225 Federal share) in Medicaid expenditures that we reviewed, DOH
improperly claimed $786,632 ($393,316 Federal share) for expenditures that were improperly
calculated because DOH had not established policies and procedures for preparing the Form
CMS-64.

RECOMMENDATIONS

We recommend that DOH:

   •   refund $393,316 to the Federal Government and

   •   establish policies and procedures for preparing the Form CMS-64.

DEPARTMENT OF HEALTH COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, DOH did not agree with the amount of the refund in our
first recommendation and provided additional supporting documentation. In addition, DOH
concurred with our second recommendation and described actions that it planned to take to
address it.

After reviewing DOH’s comments and additional documentation, we revised our finding and
related recommendations accordingly. DOH’s comments appear as the Appendix. We redacted
personally identifiable information in the comments.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION................................................................................................................1

         BACKGROUND .........................................................................................................1
             Medicaid Program ...........................................................................................1
             American Recovery and Reinvestment Act of 2009.......................................1
             U.S. Virgin Islands’ Medicaid Program ..........................................................1
             Quarterly Medicaid Statement of Expenditures for the
               Medical Assistance Program.......................................................................2
             Oversight of Quarterly Medicaid Statement of Expenditures .........................2

        OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................2
             Objective .........................................................................................................2
             Scope ...............................................................................................................2
             Methodology ...................................................................................................3

FINDING AND RECOMMENDATIONS .........................................................................3

         IMPROPERLY CALCULATED EXPENDITURES .................................................3

         RECOMMENDATIONS ............................................................................................4

         DEPARTMENT OF HEALTH COMMENTS AND
          OFFICE OF INSPECTOR GENERAL RESPONSE...............................................4

APPENDIX

         DEPARTMENT OF HEALTH COMMENTS




                                                                   iii
                                               INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved plan (State plan).
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, enacted
February 17, 2009, provided fiscal relief to States to protect and maintain State Medicaid
programs in a period of economic downturn. For the recession adjustment period (October 1,
2008, through December 31, 2010), the Recovery Act provided an estimated $87 billion in
additional Medicaid funding based on temporary increases in States’ Federal medical assistance
percentage (FMAP). 1 Section 5000 of the Recovery Act provided for these increases to help
avert cuts in health care payment rates, benefits, or services and to prevent changes to income
eligibility requirements that would reduce the number of individuals eligible for Medicaid.

U.S. Virgin Islands’ Medicaid Program

In the U.S. Virgin Islands (Virgin Islands), the Department of Health (DOH) administers the
Medicaid program. 2 DOH uses the Enterprise Resource Planning (ERP) system, a computerized
payment and information reporting system, to process and pay Medicaid claims.

Pursuant to the Act, the FMAP for the Virgin Islands is set at 50 percent. Pursuant to 42 U.S.C.
§ 1308, Federal Medicaid funding in the Virgin Islands and other U.S. territories is subject to a
statutory cap, which is increased annually by the percentage increase in the medical care
component of the Consumer Price Index for all urban consumers. (We refer to this cap as the
“annual cap.”) The Federal Government matches every Medicaid dollar spent by DOH up to the
annual cap, but expenditures above the annual cap are not matched.

Pursuant to sections 5001(b) and (d) of the Recovery Act, during the recession adjustment
period, the Virgin Islands could choose either (1) an increased FMAP that would be no less than
its 2008 FMAP increased by 6.2 percentage points plus an additional 15-percent increase in the

1
 The Education, Jobs, and Medicaid Assistance Act (P.L. No. 111-226) extended the recession adjustment period
for the increased FMAP through June 30, 2011.
2
 The Virgin Islands are an organized, unincorporated territory of the United States under the jurisdiction of the
Department of the Interior.


                                                          1
annual cap or (2) a 30-percent increase in the annual cap. DOH elected to receive a 30-percent
increase in the annual cap. As a result of the increased Recovery Act funding, the Virgin
Islands’ annual cap for the recession adjustment period was increased by $8,286,000.

Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program

DOH claims Medicaid expenditures on the Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program, Form CMS-64. The Form CMS-64 is the accounting statement
that DOH, pursuant to 42 CFR § 430.30(c), must submit to CMS within 30 days after the end of
each quarter. This form shows Medicaid expenditures for the quarter being reported and any
prior-period adjustments. It also accounts for any overpayments, underpayments, and refunds
received by DOH.

Pursuant to 42 CFR § 430.30(c) and the CMS State Medicaid Manual, § 2500.2, the amounts
reported on the Form CMS-64 and its attachments must represent actual expenditures for which
all supporting documentation, in readily reviewable form, has been compiled and that is
available at the time the claim is filed. Further, claims developed on the basis of estimates are
not allowable.

Oversight of Quarterly Medicaid Statement of Expenditures

The CMS regional office conducts quarterly reviews of the Form CMS-64. During these
reviews, CMS regional office staff members review the accounting records that DOH used to
support the Form CMS-64 and perform additional procedures in accordance with the CMS
Financial Review Guide for the Quarterly Medicaid Statement of Expenditures.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether DOH’s claims for Federal reimbursement of Medicaid
expenditures were adequately supported by actual recorded expenditures.

Scope

DOH claimed Medicaid expenditures totaling $7.9 million ($4 million Federal share) for the
quarter ended September 30, 2009. Our review covered three line items 3 on the Form CMS-64
totaling $6.5 million ($3.2 million Federal share), or 82 percent of DOH’s claimed expenditures
for the quarter. Our objective did not require a review of the overall internal control structure of
DOH. Therefore, we limited our review to DOH’s procedures for accounting for, documenting,
and claiming Medicaid expenditures for the three selected lines.

We conducted fieldwork at DOH’s offices in Charlotte Amalie, Virgin Islands, from
November 2010 through March 2011.

3
 The three line items were Inpatient Hospital Services-Regular Payments, Outpatient Hospital Services, and
Prescribed Drugs.


                                                        2
Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws and regulations and the State plan;

   •   interviewed CMS personnel responsible for monitoring the Form CMS-64 to gain an
       understanding of the process for submitting the Form CMS-64;

   •   obtained from CMS the Form CMS-64 that DOH submitted for the quarter ended
       September 30, 2009;

   •   interviewed DOH officials to gain an understanding of DOH’s policies and procedures
       for accounting for, documenting, and reporting Medicaid expenditures on the
       Form CMS-64;

   •   gained an understanding of the systems that DOH used for reporting Medicaid
       expenditures on the Form CMS-64;

   •   reconciled Medicaid expenditures claimed on the Form CMS-64 for the quarter ended
       September 30, 2009, totaling $6,478,448 ($3,239,225 Federal share), to DOH’s
       accounting records for three line items that made up 82 percent of DOH’s claimed
       expenditures for the quarter; and

   •   discussed our results with DOH officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

DOH’s claims for Federal reimbursement of Medicaid expenditures for the quarter ended
September 30, 2009, were not adequately supported by actual recorded expenditures. Of the
$6,478,448 ($3,239,225 Federal share) in Medicaid expenditures that we reviewed, DOH
improperly claimed $786,632 ($393,316 Federal share) for expenditures that were improperly
calculated because DOH had not established policies and procedures for preparing the Form
CMS-64.

IMPROPERLY CALCULATED EXPENDITURES

DOH employees use summary data from ERP to calculate expenditures on the Form CMS-64.
However, DOH officials stated that a new employee incorrectly calculated summary data from
ERP when preparing the Form CMS-64 for the quarter ended September 30, 2009. The incorrect


                                               3
calculation occurred because DOH had not established policies and procedures for preparing the
Form CMS-64. As a result, DOH improperly claimed expenditures totaling $786,632 ($393,316
Federal share).

RECOMMENDATIONS

We recommend that DOH:

   •   refund $393,316 to the Federal Government and

   •   establish policies and procedures for preparing the Form CMS-64.

DEPARTMENT OF HEALTH COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, DOH did not agree with the amount of the refund in our
first recommendation and provided additional supporting documentation. In addition, DOH
concurred with our second recommendation and described actions that it planned to take to
address it.

After reviewing DOH’s comments and additional documentation, we revised our finding and
related recommendations accordingly. DOH’s comments appear as the Appendix. We redacted
personally identifiable information in the comments.




                                               4
APPENDIX
                                                                                                                                                          Page 1 of5


                         APPENDIX: DEPARTMENT OF HEALTH COMMENTS 





                                                             GOVERNMENT OF 

                                                THE VIRG IN ISLANDS OF THE UNITED STATES 

                                                                                 •
                                                  VIRGIN ISLANDS DEPARTMENT OF HEALTH

    ST. CMIlI ): On"ICI;                                                                                                                  5T. 1'HO.l IAS OFl'IC r.
    CHAII.Lf.5 U" RWOOIl MEMOIUAl COMPLE-'\(                                                                               130) flOSPITALOROUND. SUITE 10
    3500 fSJ"ATf. RICIIMONO                                                                                                           CllARLOTTE AM"UF.
    C1 I R ISTlA N ~"Tf.D. lIT CROIX, V.I. OOS2<Hl70                                                                           5T THOMAS, U S.YI OO~2~72~
    n: l~ (HOI nj·bSSI • ~AX: (J4(I\77l.1H6                                                                          n : I.: (HO) 71'4..(1117 · fAX: (JoIO)717...!OO1
                    :-'l:IrdI 7.20 2


                    .\-Jr, James P. EdCI1 

                    Regioll!11 Insp(."\:tor General for I\udi t Scr\'icc~ 

                    U.S. Departnlent oflleallh and llum;lrI Sen ices
                    R.:gion II
                    Jacoh Ja\ ils Federal Building 

                    26 Fcdcrnl l'lal'.3 Room 3900 

                    /'o1e\\ York. New York 10278
                    Jam.... ~   1- {\<:I1/1 nll.!_hh~_Cll\


                    Dear foo lr. Edert :

                   Th,m\" ) ou for Ih .... {'xtension gr.mlcd unti l ~ brch 7. 20 [2. ;lIld rOf Fhe upportunily 10
                   C0111ment on I he abol c mentioned dran I1:jloOn "RI.'I'1l'1I 0(,111' (JIII/NCdl' MI.'(/icOIi/
                   .)/1II<lIh' lII oj E.~/"'/I(lill"-I.'.\ fi"· IfIe: tl/cc/ical A.\.\i.\/w/c·c 1'I"IJ!:ralll III Ihl.' US I',.\jo/l 1\lallf/~
                   fi)I· Ihe {}//(lrlcr Em/cd Se/llCl/lber 30. 1009" which was i~sucd to the VI Department or
                    Il ealth on Januar} :!3. 10 I:::!.

                    The J,lIIuary 23. 20 12 Dran Repon 1'\0. A-02-11·0IOO-l indi cated th;lt 133 or 6-10 paper
                    inl oitcs ncces.~a ry 10 suppo n thc $3.239.225 fedcral share ..: I<limed on Line) of the
•                   Qll:lrterly Medicaid Statement of Ex ]")(:ndilUrcs Form (CMS·6-I) li)r the qu aner ended
                    September )0, 2009 could 1101 be located by Ihe Dep:lI"ll11ent of I [ealth. and that thererore
                    th..:~..: ":.'I)ClHjilur..:~ II ..:rc ulbllppon~:d. The rccol11m..:nd:Hion is Ihat th..: Virgin l sla nd.~
                    rcrund S 1.238,925 toO the red":!";11 gQl'enJlllenl.

                    The re]1<on further indicated Ihatthe Virgi n 1;;1al1lh improperly claimed expenditures
                    totaling 5727 A 1-1 rcdcml share dlK' to an crror in sUl11m:wi J"ing dat;1 frOI\1 the ERr systcm
                    for l'ntr) on the Quancrly ~lcdicaid Statement ofl: xp(.'nditur~'s Form (Cf<. lS·(H ) tor thc
                    quancr ended Scptcmber 30.2009.

                    The GOlcmmcnt ofthc Virgin Islands' I\'sponsc to the rcpon IS all:lchcd as Exhibit I.
                    II hich ret1cc lS panial conCUITi:ncc II I\h Ih;: finding , along II Ith e~pl;lIIation!o for non·
                    concurrence or corrcclI\ e measures. 3S 3pphc;tbk. for the specllie rI.:..:ommelldallons
                    r;mgmg from addressing the retum or funds to cstablishing policies :tnd proceduTCs.
                                                                                                        Page 2 of5




        The V.l. Department of l-lcal! h and particularly its Medical Assistance Program arc
        committed to implementing the Medicaid Management Infommtion System ( MMIS) and
        laklllg actions such as developing the requisite policlcs thaI arc necessary to cnh.mc!!
        timely access 10 its data and infonnation.

        Thank you ag<lin for the opport\lnity [0 comment on the report. [ appreciate the
        opportunity to work wilh                 and Ihe members of your starr \0 resolve these
        matters.

        Ir you Iwvc any further quc!>tlOIlS or concerns. pkasc do nOl hesitate \0 conl<1cl 1111;': or
        Rence Joseph-Rhymer. Ihe Director or the Bureau of l lcahh Insumncc and Medical
        Assistance (131-1 (MAl.

        Si'~_ _ __

        Mercedes K.C. Dullum, M.D. 

        CQmmissioncr 



        Pc; 	   Honornblc John P. deJo ngh. J r., Governor,          usvr
                Ms.   PU!llCkl I1crkowsky. Chief of Staff. Office of the Govenlor
                Mr.   Angus Drigo. eFO. VI Department ofl leahh
                Ms.   Debra Gonlieb. Director. VI OMB
                Ms.   Renee Joseph- Rh ymer. Acting Din..-Clor of 13HI MA
,               Ms.   Taetia Phillips-Dorsett. Coordinator Health RetoOll. Office of the Govemor. USVI




    •




                                              , _   ."_lJ r .I~ '1   U\..J,, '.' \":II·[)IL)(J.I
                                                                                                 Page 3 of5




                          Government of the Virgin Islimds Response 

                                           to the 

           Draft Audit Report by the U.S. Department of Health and Human Services, 

                                Office of Inspecto r Generil l (OIG) 

   Review 0/ the Quarterly Medicaid Sta tement of Expenditures fo r the Medical Assistance 

          Program in the U.S. Virgin Islands tor the Quarter Ended September 30, 2009 

                             (A -02-11-01004, dated January lOll) 





FINDING #1: Unsupported Expe nditures/Imprope rly Cal culated Expenditu res

The V.1. Department of Health's (VIDOH) claims for Federal reimbursement of Medicaid
expenditures for the quarter ended September 30, 2009, were not adequately supported by
actual recorded expenditures.     Of the $6,478,448 ($3,239,225 Federal share) in Medicaid
expenditures reviewed, DOH improperly claimed $3,932,677 ($1,966,339 Federal share).
Specifically, DOH claime d reimbursement for : (1) expenditures ($1,238,925 Federal share) for
which supporting documentation could not be located because VIDOH had not established a
record retention policy; and (2) expenditures ($727,414 Federal share) that were improperly
calculated because VIDOH had not established policies and procedures for preparing the Form
CMS·64.

Recommendation

   1. Refund $1,966,339 to the Federa l Government.


   2. Establish a record retention policy.


   3. Establish policies and procedures for preparing the Form CMS·64.


Government's Response

VIDOH partially concur with this finding.

                                    Unsupported EKpenditures

However, VIDOH does not concur with Recommendation #1. On February 1, 2011, _
                         , HH5 came to the Virgin Islands and Medicaid program personnel
provided the missing invoices for review. As a result, it is VIDOH's understanding from .
_      that the OIG will be removing the finding and recommendation for the VI to refund
$1,238,925 from the final report. Because claims retrieval currently is an extremely laborious
                                                                                                                    Page 40fS




          manual process, obtaining the 133 invoices took considerably more time than was available
          during the first DIG visit. However, VIDOH anticipates submitting in March to eMS for approval,
          an Implementation Advanced Planning Document (IAPD), that will facilitate the United States
          Virgin Islands Medicaid Program's ability to operate a Medicaid Management Information
          System (MMIS).

          It is anticipated that subject to eMS approval, the MMIS will be operational in the United States
          Virgin Island during the first or second quarter of Fiscal Year 2013.          This electronic claims
          processing. storage, and retrieval system will greatly enhance VIDOH 's ability to satisfy similar
          requests for data in the future.

                                           Improperly Calculated Expenditures

          The report indicated that the Virgin Islands improperly claimed expenditures totaling $727,414
          federal share due to an error in summarizing data from the ERP system for entry on the
          Quarterly Medicai d Statement of Expenditures Form (CMS.64) for the quarter ended
          September 30, 2009.

          From a recent conversation with the OIG, it is VIDOH's understanding that OIG will he revising
          the amount of this finding downward based upon the additional documentation provided to
          the auditor during the on-site visit on February 1, 2012. As a result , VIDOH w ill reserve any
          further comment on this findin g until the final amount of the finding and the related
          calculations are determined. At that time the finding will be reviewed and a final response will
          be provided.

          VI DOH concurs with Re commendation /I 2 that a sY!>tematic written poli cy on record retention
t
        is required as a corrective measure to preclude similar issues in th e future.

          VI DOH concurs with Recommendation /I 3 that written policies and pr oc edures for preparing
          the Quarterly Medicaid Statement of Expenditures Form (CMS-64) are necessary.

          Corrective Acti on

          VIDOH staff will develop a wr itten record retention policy to address the proper recording.
          storage and retrieval pra<;ess for invoices submitted to the Medicaid Program. The draft policy
          will be transmitted to CMS for review and comments prior to finalization and distribution in
          VIDOH. Additionally, VIDOH's Medical Assistance Program (MAP) and related VIDOH staff will
          be thoroughly trained regarding the formal policies and procedures for record retention in
          accordance with the approved policy.         The written policy coupled with the tra ining should
          enhance MAP's ability to timely pro vide supportin g invoices or data,                Further, futu r e




t   Office oflnspec!or General nOle: We removed Ib is recommendation from lhe fmal repon because OOH was able 10
    provide supporting Wx:umcnlalion
                                                                                                          Page 5 of5




implementation of the MMIS will allow for even greater enhancement to the system by having
real-time access to Medicaid data and information for the U.S. Virgin Isla nds.

VI DOH will prep are a protocol on t he proper preparation of the Form CMS-64. Additionally,
staff will be t horoughly t rain ed on the formal policies and proc edures. This traini ng was alread y
initiated back in the fa ll of 2011 when Medicaid financial staff attended         11   eMS sponsore d
training cond ucted in Puerto Rico.

Implementation Datels): February 2012

Due Datets): 30:1 quarter FY 201 2

Responsible Party(ies): Direc t or, Bureau of Health Insurance and Medical Assistance (BHIMA),
                       and Administrator, fiscal Servi ces - DOH
